 DEPARTMENT OF HOMELAND SECURITY

  Ofﬁce of Inspector General



 Inadequate Security Controls Increase Risks
         to DHS Wireless Networks




 Ofﬁce of Information Technology
OIG-04-27                     June 2004
                                                                      Ofﬁce of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Ofﬁce of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG as part of its DHS oversight responsibility to identify and prevent fraud,
waste, abuse, and mismanagement.

This report assesses the strengths and weaknesses of the program or operation under review. It
is based on interviews with employees and ofﬁcials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to the OIG,
and have been discussed in draft with those responsible for implementation. It is my hope that
this report will result in more effective, efﬁcient, and economical operations. I express my
appreciation to all of those who contributed to the preparation of this report.




                                              Clark Kent Ervin
                                              Inspector General
                                                                                                                         Contents


  Introduction .................................................................................................................................... 3

  Results in Brief .............................................................................................................................. 3

  Background .................................................................................................................................... 4

  Findings… ..................................................................................................................................... 6

       Strengthened Security Guidance Is Needed For Wireless Network Implementation .............. 6

       Wireless Networks and Messaging Systems Are Vulnerable .................................................. 9

       Wireless Networks Have Not Been Certiﬁed and Accredited .................................................19

  Recommendations ..........................................................................................................................21

  Management Comments and OIG Evaluation ...............................................................................22

Appendices

  Appendix A:                 Purpose, Scope, and Methodology...................................................................25
  Appendix B:                 Management’s Response..................................................................................27
  Appendix C:                 Wireless Technology Standards and Functionality ..........................................33
  Appendix D:                 DHS Wireless Capabilities ...............................................................................34
  Appendix E:                 Report Distribution ..........................................................................................35
  Appendix F:                 Major Contributors to the Report.....................................................................36


Abbreviations

  802.11x                     Wireless Fidelity: 802.11a, 802.11b, and 802.11g
  CBP                         Bureau of Customs and Border Protection
  CIS                         Bureau of Citizenship and Immigration Services
  ICE                         Bureau of Immigration and Customs Enforcement
  CIO                         Chief Information Ofﬁcer
  C&A                         Certiﬁcation and Accreditation



                    Inadequate Security Controls Increase Risks to DHS Wireless Networks                                                         Page 1
Contents

   DHS        Department of Homeland Security
   DMZ        Demilitarized Zone
   EP&R       Emergency Preparedness and Response
   FISMA      Federal Information Security Management Act
   Handbook   The DHS IT Security Program Handbook for Sensitive Systems
   IDS        Intrusion Detection System
   IrDA       Infrared
   ISSO       Information System Security Ofﬁcers
   IT         Information Technology
   MAC        Media Access Control
   MD         Management Directive
   NIST       National Institute of Standards and Technology
   OIG        Ofﬁce of Inspector General
   OMB        Ofﬁce of Management and Budget
   PDA        Personal Digital Assistant
   SP         Special Publication
   SSID       Service Set Identiﬁer
   TSA        Transportation Security Administration
   USCG       United States Coast Guard
   USSS       United States Secret Service
   WEP        Wired Equivalent Privacy




Page 2               Inadequate Security Controls Increase Risks to DHS Wireless Networks
OIG
Department of Homeland Security
Ofﬁce of Inspector General


    Introduction
                                   The Ofﬁce of Inspector General (OIG) evaluated whether Department of
                                   Homeland Security (DHS) and its components1 have implemented adequate
                                   security controls to protect data transmitted on wireless networks and devices.
                                   This audit included an evaluation of the security policies and procedures for the
                                   administration, conﬁguration, and use of sensitive but unclassiﬁed DHS wireless
                                   networks.

                                   The objective was to determine whether DHS developed adequate security
                                   policies, established oversight procedures, and implemented sufﬁcient security
                                   measures to ensure that wireless networks and devices are secure. Work was
                                   conducted at DHS’ Ofﬁce of the Chief Information Ofﬁcer (CIO) and selected
                                   components. Fieldwork was performed at DHS facilities from October 2003
                                   through January 2004. See Appendix A for a discussion of our purpose, scope, and
                                   methodology.

    Results in Brief
                                   DHS has not provided sufﬁcient guidance to its components or established
                                   adequate controls necessary to implement its wireless program. Speciﬁcally:
                                   (1) wireless policy is incomplete, (2) procedures do not establish a sound baseline
                                   for wireless security implementation, and (3) the National Wireless Management
                                   Ofﬁce is not exercising its full responsibilities in addressing DHS’ wireless
                                   technologies. Further, DHS has not established adequate security measures to
                                   protect its wireless networks and devices against security risks. Finally, although
                                   the DHS security policy requires certiﬁcation and accreditation (C&A) for its
                                   systems to operate, none of the wireless systems reviewed had been certiﬁed or
                                   accredited. As a result of these wireless network exposures, DHS cannot ensure
                                   that the sensitive information processed by its wireless systems are effectively
                                   protected from unauthorized accesses and potential misuse.



    1
        DHS components are deﬁned as Directorates (including organizational elements and bureaus) and critical agencies.



                           Inadequate Security Controls Increase Risks to DHS Wireless Networks                            Page 3
             Our report includes ﬁve recommendations that will assist DHS in remedying the
             deﬁciencies that we identiﬁed. Speciﬁcally, the DHS CIO should:

                 •   Deﬁne the conditions and limitations for using wireless technologies in
                     the DHS security policy.

                 •   Update the DHS Information Technology (IT) Security Program
                     Handbook for Sensitive Systems (Handbook) to include implementation
                     procedures required by National Institute of Standards and
                     Technology (NIST) Special Publication (SP) 800-48 for the use of
                     wireless technologies.

                 •   Require the National Wireless Management Ofﬁce (WMO) to provide
                     the necessary oversight and guidance to align components’ wireless
                     programs with DHS’ wireless goals.

                 •   Implement a standardized conﬁguration for wireless technologies on
                     DHS networks.

                 •   Complete a C&A for each DHS system.

             In response to our draft report, the DHS CIO agreed and has already taken steps
             to implement each of the above recommendations. However, the DHS CIO
             disagreed that the National Wireless Management Ofﬁce is not exercising its full
             responsibilities. Based on our assessment of the CIO’s response, we continue
             to maintain our conclusion that oversight by the WMO of wireless functionality
             within DHS needs to be improved. DHS’ response is summarized and evaluated
             in the body of this report and included, in its entirety, as Appendix B.

Background
             Wireless technologies can enhance the productivity of DHS employees.
             Enhanced functionality and increases in the number and types of available
             applications have dramatically increased the use and usefulness of wireless
             devices. Wireless devices have addressed user requirements for immediate
             communication, service, and greater productivity. In the past ﬁve years, there has
             been a dramatic evolution in wireless technologies, standards, and implementation
             practice. These changes may expose sensitive information systems to security
             vulnerabilities.




Page 4               Inadequate Security Controls Increase Risks to DHS Wireless Networks
                              The use of wireless technology has introduced new security risks to a wired
                              network, such as unauthorized access to data through eavesdropping2 or theft.
                              Highly portable, handheld wireless devices, such as personal digital assistants3
                              (PDA) and wireless messaging devices, can contain sensitive information that is
                              easily retrievable, especially if the device is lost or stolen. Eavesdropping can
                              result in a hacker gaining unauthorized access to DHS’ wired network. Further,
                              the ﬂexibility and portability of wireless technology and devices increases the
                              need for security. One concern is data interception. Hackers can intercept radio
                              signals by eavesdropping on the transmission, possibly compromising sensitive
                              data stored on laptop computers, PDAs, and other wireless handheld devices.
                              The introduction of these vulnerabilities increases the need to develop adequate
                              policies and procedures and to implement strong security controls to mitigate risks
                              associated with wireless devices and networks.

                              The most common communication standards used by wireless devices are:

                                   1) 802.11x4

                                   2) Bluetooth

                                   3) Infrared (IrDA)

                              The 802.11x devices form a wireless local area network by connecting through
                              an access point or to other 802.11x devices. Today, most laptop computers are
                              equipped with 802.11x chipsets and IrDA ports, which give these devices wireless
                              functionality. Recently, projectors have included the capability to use the 802.11x
                              wireless technology communication standard. “Bluetooth” is primarily used on
                              handheld devices such as PDAs. Some new generation printers come with IrDA
                              ports, 802.11x, and Bluetooth chipsets already built-in. See Appendix C for more
                              information on wireless technology standards and functionality.

                              The tragic events of September 11, 2001, underscored the need for critical
                              personnel and senior management to have the capability to communicate sensitive
                              information and management decisions securely during emergencies. On this
                              date, excessive call volume overburdened the cellular telephone system, but

2
  “Eavesdropping” is the operation of capturing data by an unintended party; in addition to invasion of privacy, it may also lead to other
attacks such as impersonation, session hijacking, packet spooﬁng, and internet sharing by unauthorized parties.
3
  A handheld computer that stores and organizes personal information. Data is synchronized between a user’s PDA and desktop computer
by cable or wireless transmission.
4
  The Institute of Electrical and Electronics Engineers 802.11 standards, such as 802.11a, 802.11b, and 802.11g; and implies Wireless
Fidelity or Wireless Local Area Network.


                     Inadequate Security Controls Increase Risks to DHS Wireless Networks                                          Page 5
                               the Blackberry® communication services were able to function. DHS uses
                               Blackberry® devices as its primary wireless messaging service.

                               The Federal Information Security Management Act (FISMA) of 2002, Title III,
                               E-Government Act of 2002, P.L. 107-347, December 17, 2002, requires each
                               agency to develop, document, and implement an agency-wide information
                               security program, to provide security for the information and information systems,
                               including wireless systems, that support the operations and assets of the agency.
                               Policies should ensure that information security is addressed throughout the life
                               cycle of each agency information system and determine minimally acceptable
                               system conﬁguration requirements.

Findings

            Strengthened Security Guidance Is Needed For Wireless Network
            Implementation
                               DHS has not provided sufﬁcient guidance on wireless implementation to its
                               components. Speciﬁcally: (1) wireless policy is incomplete and remains in draft;
                               (2) implementation procedures do not establish a sound baseline for wireless
                               security; and, (3) the National Wireless Management Ofﬁce is not exercising
                               its full responsibilities in overseeing DHS’ wireless technologies. As a result,
                               the lack of adequate guidance has diminished the effectiveness of controls
                               implemented to protect DHS networks.

                               DHS Wireless Policy Is Incomplete

                               Although DHS established an Information Technology Security Program policy,
                               Management Directive (MD) 4300A, to include wireless communication
                               technologies and devices, it does not cover Bluetooth technology and remains
                               in draft.5 Without speciﬁc policy, IT security managers are less likely to address
                               the risks associated with the use of Bluetooth technology which is designed to
                               connect disparate devices to form an ad hoc network. Further, components have
                               not established their own IT security policies including wireless technology.

                               When drafting its wireless communications policy, DHS ofﬁcials omitted
                               Bluetooth technology, because they concluded that it did not pose a signiﬁcant

5
    At the time of our review, MD 4300A was in draft; however, as of February 9, 2004, this MD was formally issued.




Page 6                                     Inadequate Security Controls Increase Risks to DHS Wireless Networks
                               risk. However, other federal and wireless industry authorities have issued security
                               notices on Bluetooth vulnerabilities. As Bluetooth functionality is added to more
                               devices and continues to gain widespread use, DHS must address the security
                               vulnerabilities associated with the use of Bluetooth technology. Many devices
                               such as laptop computers, cellular phones, printers, PDAs, cameras, and other
                               peripheral devices have Bluetooth technology built-in.

                               DHS and its components share the responsibility for developing, implementing,
                               and managing their wireless communications. While the DHS Ofﬁce of the
                               CIO is responsible for the oversight and management of its wireless program,
                               the components, using the DHS IT security policy as a baseline, were required
                               to develop their own IT security policies, standards, and guidelines to include
                               wireless activities. MD 4300A required each component to provide draft
                               directives and procedures to the DHS Chief Information Security Ofﬁcer by
                               November 30, 2003. Only three of the eight components covered in our review
                               - Emergency Preparedness and Response (EP&R), Transportation Security
                               Administration (TSA), and United States Coast Guard (USCG) - prepared draft
                               security policies for wireless technology. Although these policies have been
                               drafted, they do not include all of the requirements contained in the DHS security
                               policy or the NIST SP 800-48. The remaining ﬁve components lacked policies to
                               address wireless communications.

                               Implementation Procedures Can Be Improved

                               The DHS Handbook6 does not include many of the required controls for 802.11x
                               and wireless messaging systems as prescribed by NIST SP 800-48. Further, the
                               handbook does not deﬁne the necessary security controls for the implementation
                               and use of Bluetooth technology. Consequently, components may lack sufﬁcient
                               guidance to implement effective security controls for wireless networks and
                               devices.

                               The purpose of the DHS Handbook is to provide procedures for implementing the
                               requirements of the DHS IT Security Program. To support the security of wireless
                               technology, the handbook refers to various NIST publications. The NIST SP 800-
                               48, Wireless Network Security, provides security guidelines and procedures
                               for 802.11x, Bluetooth, and handheld devices. The handbook did not include
                               any reference on the use of Bluetooth technology. As a result, critical security
                               management practices and controls for maintaining and operating a secure

6
    Version 1.4, dated December 16, 2003.



                       Inadequate Security Controls Increase Risks to DHS Wireless Networks                Page 7
                             wireless network, recommended by NIST SP 800-48, were not incorporated into
                             the handbook, including:

                                  •     Deﬁnitions of the approved uses of wireless networks.

                                  •     Standards for hardware and software conﬁgurations for portable
                                        electronic devices.

                                  •     Conditions and limitations for handheld devices, such as authorized
                                        locations or the use of public “hot spots.”

                                  •     Requirements for reporting and deactivating lost or stolen laptops and
                                        handheld devices and disposing of wireless devices.

                                  •     Criteria for the use of handheld device features such as wireless radio
                                        frequency transmission, peer-to-peer7 communication, and Internet
                                        connectivity.

                                  •     Requirements to monitor the wireless industry for the release of new
                                        products with improved security or changes in wireless standards
                                        affecting security.

                                  •     Requirements to review security alerts and advisories relevant to wireless
                                        technology to identify vulnerabilities applicable to the DHS environment.

                             The National Wireless Management Ofﬁce Is Not Exercising Its
                             Full Responsibilities

                             The National Wireless Management Ofﬁce currently does not oversee all
                             DHS wireless functionality. The ofﬁce was created on March 25, 2003, by
                             MD 4100.1, to oversee all wireless technology and establish wireless goals to
                             improve homeland security, reduce technology costs, and ensure interoperability
                             of systems. Although the National Wireless Management Ofﬁce was to
                             coordinate and develop policy and strategy for all DHS wireless technologies,
                             at present, its primary focus is on land mobile radio systems. The National
                             Wireless Management Ofﬁce does not provide current oversight of wireless
                             implementation within DHS. The National Wireless Management Ofﬁce is


7
 Peer-to-peer messages are sent from handheld to handheld across the wireless network. The peer-to-peer messages do not pass through a
mail server.


Page 8                                  Inadequate Security Controls Increase Risks to DHS Wireless Networks
                              focused only on radio infrastructure because current DHS priorities and funding
                              are directed toward management of land mobile radio systems.

                              Sound guidance is the ﬁrst step in implementing a secure information system.
                              Incomplete wireless policy, the issuance of weak implementation guidance, and
                              inadequate management oversight may result in sensitive data that cannot be
                              effectively protected. Without adequate controls and implementation procedures
                              for all wireless technologies, malicious users may gain unauthorized access to
                              a network and its data. Establishing and enforcing compliance with a security
                              policy that includes Bluetooth will help mitigate the inherent security risks.
                              Furthermore, wireless networks operating without required security management
                              practices and procedures increase the risk that security controls protecting DHS
                              networks can be circumvented. Finally, components that implement wireless
                              systems without speciﬁc requirements and guidelines may not align with DHS
                              wireless goals.

     Wireless Networks and Messaging Systems Are Vulnerable

                              DHS has not established adequate security controls to protect its wireless
                              networks and devices against commonly known security vulnerabilities. To
                              assess the security of wireless within DHS we: (1) used a handheld wireless
                              network scanner to detect rogue8 802.11b devices and evaluate the coverage
                              of the wireless signals broadcast by the access points; (2) used a Bluetooth
                              transceiver to detect the presence of Bluetooth signals; and (3) reviewed security
                              conﬁgurations on wireless messaging servers and sampled wireless messaging
                              devices to evaluate the effectiveness of the implemented controls. In assessing
                              the effectiveness of controls implemented on DHS wireless networks and devices,
                              we identiﬁed several vulnerabilities regarding 802.11x wireless networks and
                              devices, Bluetooth devices, and wireless messaging systems.

                              DHS’ Wireless Networks Are Susceptible To Monitoring And Eavesdropping

                              The security controls implemented on DHS’ 802.11x wireless networks do
                              not protect against unauthorized access to sensitive data maintained on DHS
                              networks. The DHS components have employed 802.11x technology without
                              effective conﬁguration standards and implementation guidance. Wireless
                              networks operating without a standard wireless conﬁguration or adequate


8
 A “rogue” access point is one that is accessible to an organization’s employees, but is not managed as a part of the approved network.
Most rogue access points are installed by employees and not managed by IT administrators.


                     Inadequate Security Controls Increase Risks to DHS Wireless Networks                                          Page 9
                               controls increases the risk that security controls protecting DHS networks can be
                               circumvented.

                               The 802.11x transmission standard is the most widely installed wireless network
                               technology industry-wide, but many users are unaware of its vulnerabilities.
                               According to industry experts, while some measures are in place to improve
                               security, users or the provider of wireless transmission sites usually neglect these
                               controls.

                               In October 2003, we requested that DHS components identify their use of
                               wireless technology. As illustrated in Appendix D, four components - Bureau of
                               Citizenship and Immigration Services (CIS), EP&R, TSA, and USCG - said that
                               they were using 802.11x wireless technology. In addition to the four components
                               reporting the use of 802.11x technology, we conducted scans at other selected
                               components: the Bureau of Customs and Border Protection (CBP), DHS
                               Management, and the United States Secret Service (USSS).

                               We performed random 802.11b detection scans at ten different facilities to
                               identify rogue wireless devices, verify signal coverage for access points, and
                               review conﬁguration settings to evaluate security controls. The four components
                               which reported use of 802.11x technology do not monitor wireless activity and
                               do not have a set schedule to review access point logs to identify unauthorized
                               login attempts or to determine whether rogue devices had been introduced into the
                               network. In addition, during our onsite scans, namely of these four components,
                               we found several 802.11x security vulnerabilities:

                                     •     There was no Demilitarized Zone9 (DMZ) to separate a wireless network
                                           from the wired network at a CIS facility.10 A wireless network was
                                           connected directly to a wired network at the facility. In addition, the
                                           local administrator was not aware of the need to establish a DMZ to
                                           separate wireless trafﬁc from the wired network.

                                     •     For each component using 802.11x technology, there are no intrusion
                                           detection systems11 (IDS) installed to monitor wireless activity. IDS
                                           can be conﬁgured to send a notiﬁcation to system administrators to

9
  A “DMZ” is typically a safe area protected by two perimeter ﬁrewalls that ensures that users and network trafﬁc do not transverse the two
networks without proper authentication and authorization.
10
   Although this is a CIS facility, the site is connected to ICE network infrastructure. In addition to adopting ICE’s security policies at this
facility, ICE personnel provide network support to the facility too.
11
   An IDS is an effective tool for determining whether unauthorized users are attempting to access, have already accessed, or have
compromised the network.


Page 10                                    Inadequate Security Controls Increase Risks to DHS Wireless Networks
                                        take immediate action and eliminate threats or minimize damage from
                                        unauthorized access.

                                  •     We identiﬁed two rogue wireless access points at a USCG facility.
                                        USCG ofﬁcials told us that they had not performed periodic scans, but
                                        they plan to do so once they purchase an 802.11x scanner. Without
                                        periodic scans, a malicious or irresponsible user can conceal a rogue
                                        device in a closet, under a conference room table, or any hidden area
                                        within a building. The rogue device can then be used to intercept
                                        trafﬁc between an authorized wireless access point and clients, or allow
                                        malicious users unauthorized access to the network. Introducing rogue
                                        devices to a network creates signiﬁcant security vulnerabilities, which
                                        bypass security controls and opens a back door to malicious users.

                                  •     During our scans, we detected DHS wireless signals broadcasting beyond
                                        the physical boundaries, i.e., perimeter walls, at CIS, EP&R, and USCG
                                        facilities. Although EP&R and USCG facilities are located within
                                        secured compounds, these wireless signals create security vulnerabilities,
                                        such as eavesdropping and denial of service12 attacks. For example, at
                                        the CIS Service Center, we detected wireless signals emanating from
                                        the facility in the parking lot, on public roads behind the facility, and the
                                        surrounding residences.




12
  Denial of service is a form of attacking another computer or company by sending millions or more requests every second causing the
network to slow down, cause errors, or shut down.


                     Inadequate Security Controls Increase Risks to DHS Wireless Networks                                      Page 11
              The following diagram illustrates DHS signals broadcasting beyond the
              facility’s physical boundaries.
                                                Chart 1




              The local CIS administrators said that the DHS signals were detected from
              outside the facility because wireless access points had been repositioned
              to the back of the building during a recent expansion. The network
              administrators did not perform a signal coverage test to determine the
              proper placement of the access points or to ensure that wireless signals
              were restricted to the DHS facility.

          •   We detected non-DHS wireless signals within CIS and CBP facilities.
              These signals can be used to monitor or gain unauthorized access to DHS
              wireless networks and sensitive data or to launch denial of service attacks.
              For example, from within a CIS Service Center facility we detected
              signals from surrounding residences and businesses.


Page 12        Inadequate Security Controls Increase Risks to DHS Wireless Networks
                The following diagram illustrates non-DHS signals broadcasting within
                the facility’s physical boundaries.
                                          Chart 2




       The DHS Handbook speciﬁes that maintaining a secure wireless network is an
       ongoing process that requires greater effort than that required for other networks
       and systems. In addition, NIST SP 800-48, Wireless Network Security, requires
       that agencies should assess risks more frequently, as well as test and evaluate
       system security controls when wireless technologies are deployed.

       None of the four components using 802.11x technology had applied DHS’
       minimal security requirements to protect their wireless networks. We discovered
       that the following controls, required by the DHS Handbook and NIST, were not
       implemented at one or more sites visited:



Inadequate Security Controls Increase Risks to DHS Wireless Networks               Page 13
                                   •     Site surveys to place wireless assess points strategically to minimize the
                                         risks of eavesdropping from unauthorized users.

                                   •     Security tests to evaluate the effectiveness of wireless controls according
                                         to the requirements outlined in the NIST SP 800-48.

                                   •     Periodic scans for rogue devices to ensure that unauthorized devices are
                                         not introduced to the network.

                                   •     Installation of boundary protection devices, such as ﬁrewalls and IDS, to
                                         separate wired and wireless networks.

                                   •     Changing the default Wired Equivalent Privacy13 (WEP) keys to make
                                         them difﬁcult to guess and to minimize unauthorized login attempts.

                                   •     Enabling 128-bit encryption14 on WEP keys and using robust passwords
                                         to increase the level of encryption on the assess points and to minimize
                                         the threats from unauthorized access.

                                   •     Enabling Media Access Control15 (MAC) ﬁltering to limit access to
                                         legitimate wireless devices.

                                   •     Disabling the broadcast of the Service Set Identiﬁer16 (SSID) so that this
                                         access point identiﬁer is not readily available to the general public.

                                   •     Adopting a “defense in depth”17 approach, which promotes the
                                         application of multiple layers of available security to secure all aspects
                                         of a network. In addition, network administrators should receive
                                         specialized training on protecting wireless networks.

13
   “WEP” is a system security protocol (encryption process) speciﬁed in the Institute of Electrical and Electronics Engineers 802.11
standards that is designed to provide a wireless local area network with a level of security and privacy comparable to what is usually
expected of a wired local area network.
14
   “Encryption” is the conversion of data into a form that cannot be easily understood by unauthorized people. Accordingly, 128-bit
encryption is a strong, industry standard method of securing data transmissions.
15
   MAC ﬁltering provides capabilities for restricting access to the wireless local area network based on MAC access control lists that
are stored and distributed across many access points. The MAC access control list grants or denies access to a computer using a list of
permissions designated by MAC address.
16
   The SSID is a conﬁgurable identiﬁcation that allows clients to communicate to the appropriate base station. With proper conﬁguration,
only clients that are conﬁgured with the same SSID can communicate with base stations having the same SSID. From a security point of
view, the SSID acts as a simple single shared password between base stations and clients.
17
   “Defense in depth” is the concept of protecting a computer network with a series of defensive mechanisms, e.g., if one mechanism fails,
another will already be in place to thwart an attack.



Page 14                                  Inadequate Security Controls Increase Risks to DHS Wireless Networks
       Further, of the eight components reviewed, only the USSS had performed 802.11x
       scans within its facilities. The USSS is currently not using 802.11x technology,
       but scans for rogue access points as part of its security program requirements.

       These weaknesses occurred because, prior to transitioning to DHS, components
       had already implemented their wireless networks under legacy agencies’ security
       conﬁgurations. Wireless controls implemented at the components reviewed were
       not effective to protect against unauthorized access. Further, there is a lack of
       awareness among the administrators of the need to implement additional security
       controls to protect wireless networks.

       Because strong controls are not implemented on all of its wireless networks,
       DHS lacks the ability to prevent unauthorized users from connecting to its
       networks or to ensure that only legitimate users can access the network resources.
       Without performing site surveys, DHS cannot ensure that its wireless signals
       are broadcast only to the intended area and users. Further, when components
       do not apply NIST’s minimal security requirements, DHS does not have
       assurance that its wireless networks are properly conﬁgured and protected against
       malicious activities. Finally, wireless networks operating without a standardized
       conﬁguration increase the risk that security controls protecting DHS networks can
       be circumvented.

       Bluetooth Devices Can Be Exploited

       Although DHS’ policy does not address the use of Bluetooth technology, we
       identiﬁed Bluetooth enabled devices at three of ten components (CIS, USCG, and
       USSS) scanned. Because end users may not be aware of Bluetooth technology
       embedded in their devices, equipment can be connected to a network that
       introduces the security vulnerabilities associated with Bluetooth technology.

       Bluetooth technology is built into various technological devices such as
       headphones, keyboards, digital cameras, printers, projectors, cellular phones,
       laptop computers, and PDAs - often unknown to the end user. During our scans,
       we determined that Bluetooth had been enabled on:

           •    Three laptop computers at a USSS facility. One of these laptop computers
                was connected to the network, potentially allowing back door access to the
                network. Neither the user nor security personnel was aware that Bluetooth
                capability was enabled on the laptop computer. The local administrator




Inadequate Security Controls Increase Risks to DHS Wireless Networks              Page 15
                  told us that his ofﬁce performed random scans for 802.11x devices but not
                  for Bluetooth devices.
             •    Cellular phones at three separate DHS facilities. Although the risk is low,
                  a malicious user can use a Bluetooth enabled cellular phone as a bugging
                  device.

          Without policy or procedures to address Bluetooth technology, there is no
          requirement to test all electronic devices for Bluetooth technology prior to
          installing any new equipment in a facility or for performing periodic scans for
          Bluetooth devices.

          The NIST SP 800-48 recommends the following controls to protect Bluetooth
          devices:

              •    Deﬁne the approved uses for Bluetooth devices.

              •    Prohibit the use of Bluetooth enabled devices in a classiﬁed environment.

              •    Provide users with training as to the vulnerabilities associated with the
                   use of Bluetooth technology.

              •    Enable device authentication as an extra level of security.

              •    Enable encryption to encrypt all trafﬁc between devices.

              •    Enable the device password protection feature.

          As Bluetooth continues to gain popularity, DHS must address the security
          vulnerabilities associated with the use of this technology. Establishing guidelines
          on servers and devices along with enforcing compliance with security policies
          can help mitigate the inherent Bluetooth security risks. When Bluetooth
          vulnerabilities are not addressed, malicious users may gain unauthorized access to
          a network and its data or launch denial of service attacks.

          Wireless Messaging Systems Need More Stringent Controls

          DHS has not established adequate security controls to enforce device level
          management from the server. Consequently, users may disable security
          conﬁguration settings on their handheld devices. Without stringent controls, DHS



Page 16            Inadequate Security Controls Increase Risks to DHS Wireless Networks
       cannot ensure that the sensitive messages processed by its wireless messaging
       systems are protected from unauthorized accesses and potential misuse.

       We identiﬁed ﬁve components using wireless messaging systems. The CBP,
       Bureau of Immigration and Customs Enforcement (ICE), DHS Management,
       and EP&R utilized the Blackberry® Enterprise Server software, while the USCG
       employed GoodLink™ Server software. To assess the controls over DHS’
       wireless messaging systems, we randomly sampled wireless devices and reviewed
       the security conﬁguration settings on the applicable servers.

       Only EP&R was using an updated version of Blackberry® software, allowing
       security controls to be centrally managed from the server. When applied, the
       server’s security settings propagate down and become mandatory for all handheld
       devices.

       DHS Management was using a current version of Blackberry® software, but
       had not implemented required device controls at the server. The CBP and ICE
       employed an older version of Blackberry® software, which did not permit device
       level management from the server. The CBP and ICE Blackberry® servers
       were conﬁgured with weak security settings and did not enforce recommended
       security controls. Thus, the users could adjust security settings on the device.
       Speciﬁcally, we determined that:

            •    Password protection was not enabled for individual devices.

            •    Criteria for password aging and composition were not set at the server,
                 allowing users to create “weak” passwords on the devices.

            •    Weak encryption was enabled on handheld devices, instead of the
                 recommended strong encryption. Use of weak encryption allows an
                 attacker to easily bypass password protection on a device to gain access
                 to its sensitive contents.

            •    The Peer-to-Peer feature was not disabled. Wireless messages sent and
                 received between devices are unencrypted, thereby circumventing the
                 Blackberry® software encryption.

            •    The Internet browsing feature was enabled on handheld devices.
                 Handheld devices that have Internet browsing capability can be
                 susceptible to virus infection and malicious attacks.



Inadequate Security Controls Increase Risks to DHS Wireless Networks               Page 17
                                  •     The feature to automatically erase the data from the handheld device after
                                        a number of unsuccessful logon attempts was not enabled.

                            The USCG is the only component that uses a GoodLink™ wireless messaging
                            system. The current version of software on the Goodlink™ software permits only
                            limited device level management. Password and device timeout features that
                            protect the device from unauthorized use were enabled through the GoodLink™
                            desktop software installed on the users’ computers; however, users may modify
                            the controls of the desktop software.

                            The USCG had enabled 128-bit encryption on the GoodLink™ server and on all
                            handheld devices. Further, Peer-to-Peer and Internet browsing features are not
                            available options for GoodLink™ devices. Therefore, this limited functionality
                            does not pose serious vulnerabilities.

                            Best practices, as presented by the Defense Information Systems Agency18 and
                            SANS19, recommend the following controls to secure wireless messaging systems
                            and devices:

                                  •     Enable password protection and time-out features.

                                  •     Use strong passwords and encryption.

                                  •     Disable the Peer-to-Peer feature between devices.

                                  •     Disable Internet browsing.

                                  •     Enable the feature to automatically erase all data from the handheld
                                        device after a number of unsuccessful logon attempts in the event the
                                        device is loss or stolen.

                            Without more stringent controls, DHS cannot ensure that the sensitive messages
                            processed by its wireless messaging systems are protected effectively from
                            unauthorized accesses and potential misuse.




18
  Wireless Security Technical Implementation Guide, Version 1, Release 4, dated January 9, 2003.
19
  SANS is a leader in information security research, certiﬁcation, and education. The SANS (SysAdmin, Audit, Network, Security)
Institute was established in 1989 as a cooperative research and education organization.



Page 18                                 Inadequate Security Controls Increase Risks to DHS Wireless Networks
Wireless Networks Have Not Been Certiﬁed and Accredited

                DHS’ wireless networks and messaging systems are currently operating without
                C&A. When wireless networks and messaging systems operate without a full
                C&A, DHS has little assurance that these networks and systems meet a speciﬁed
                set of security requirements.

                The primary purpose of C&A is to ensure that adequate security is provided for
                information collected, processed, transmitted, stored, or disseminated by the
                systems. Speciﬁcally, we determined that:

                     •    CIS, EP&R, USCG, and TSA were using 802.11x wireless networks
                          without a C&A to operate.

                     •    CBP and DHS Management were using wireless messaging systems
                          without a C&A to operate.

                     •    ICE, EP&R, and USCG were using wireless messaging systems under an
                          Interim Authority to Operate.

                Without a C&A and Interim Authority to Operate, it is unknown whether systems
                have met the stringent security requirements established by applicable federal and
                DHS guidance.

                The security certiﬁcation package presents the results of the security certiﬁcation
                and provides the authorizing ofﬁcial with the essential information needed to
                make a credible risk based decision on whether to authorize operation of the
                information system. The security certiﬁcation package contains the following
                documents: (i) the updated security plan; (ii) the security test and evaluation
                report; and (iii) the plan of action and milestones.

                The purpose of the security plan is to provide an overview of the security
                requirements of the system and describe the controls in place or planned for
                meeting those requirements. We identiﬁed control weaknesses that may not have
                occurred had an updated security plan been in place:

                    •    EP&R and DHS Management could not account for all of their wireless
                         messaging devices. Ofﬁcials said that the devices were lost or stolen.




         Inadequate Security Controls Increase Risks to DHS Wireless Networks                Page 19
             •   None of the components included wireless vulnerabilities as part of
                 their security awareness training. Consequently, wireless administrators
                 and users have limited knowledge on the use and protection of wireless
                 devices.
             •   DHS management ofﬁcials maintained two separate wireless messaging
                 inventory lists. One list contained 170 devices while the other identiﬁed
                 534 devices. The security manager was unable to explain this discrepancy.
          As previously reported in the Federal Emergency Management Agency,
          Government Information Security Reform Act Annual Report For Fiscal
          Year 2002, EP&R still does not have a complete listing of all devices with
          wireless connectivity capabilities. This is a concern because there are many
          documented information security weaknesses related to wireless connectivity.
          The deﬁciencies in security controls, noted above, demonstrate problems with
          physical security and shortcomings in the security program.

          Ofﬁce of Management and Budget (OMB) Circular A-130 and DHS MD 4300A
          require formal certiﬁcation and ofﬁcial management authorization to operate all
          systems. In addition, all systems shall be re-certiﬁed every three years or when a
          signiﬁcant change that affects the system’s security posture is implemented.

          FISMA requires federal agencies to provide mandatory periodic training in
          computer security awareness and accepted computer security practices for all
          employees who are involved with the management, use, or operation of a federal
          computer system within or under the supervision of the federal agency. OMB
          Circular A-130, Appendix III, issued in 1996, enforces such mandatory training
          by requiring its completion prior to granting access to the system and through
          periodic refresher training for continued access.

          Having wireless networks and messaging systems operating without a full C&A,
          DHS has no assurance that these networks and systems meet a speciﬁed set of
          security requirements. The use of wireless technology introduces new security
          risks to wired networks and the risk for security controls to be circumvented
          is high on a network or system that is operating without the required C&A.
          Operating a wireless network and messaging system without C&A could be
          equivalent of offering intruders easy access to a system’s sensitive data.




Page 20           Inadequate Security Controls Increase Risks to DHS Wireless Networks
Recommendations
                To enhance the DHS guidance for wireless implementation, we recommend that
                the CIO:

                     1.   Deﬁne the conditions and limitations for using wireless technologies,
                          including Bluetooth, in the DHS security policy.

                     2.   Update the DHS IT Security Program Handbook to include
                          implementation procedures required by NIST SP 800-48 for the use
                          of wireless technologies. In addition, the Chief Information Security
                          Ofﬁcer should identify what DHS’ minimally acceptable system
                          conﬁguration requirements will be and document these requirements in
                          the handbook.

                     3.   Require the National Wireless Management Ofﬁce to provide the
                          necessary oversight and guidance to align components’ wireless
                          programs with DHS’ wireless goals.

                To protect its wireless networks and messaging systems effectively, we
                recommend that the CIO:

                     4. Implement a standardized conﬁguration addressing wireless technologies
                        on DHS networks, consistent with federal security requirements. In
                        addition, the Chief Information Security Ofﬁcer should require site
                        surveys and wireless scans to verify that DHS’ wireless signals are
                        broadcast only to authorized users and areas.

                To address the formal information systems review process and authorization to
                operate, we recommend that the CIO:

                     5.   Complete a C&A for each DHS system according to federal and DHS
                          directives. The Chief Information Security Ofﬁcer should make certain
                          that the security certiﬁcation packages contain the essential information
                          needed to make a credible risk-based decision on whether to authorize
                          operation of the information system.




         Inadequate Security Controls Increase Risks to DHS Wireless Networks                Page 21
Management Comments and OIG Evaluation
             We obtained written comments (Appendix B) on a draft of this report from DHS.
             DHS agreed with each of our recommendations. Below is a summary of DHS’
             response to each recommendation and our assessment of the response.

             Recommendation 1: Deﬁne the conditions and limitations for using wireless
             technologies, including Bluetooth, in the DHS security policy.

             DHS agreed to deﬁne the conditions and limitations for using wireless
             technologies in the DHS security policy. The DHS WMO is currently working
             with the Chief Information Security Ofﬁcer to revise MD 4300 along with
             the associated policy statements, handbooks, and attachments. DHS plans to
             complete this action by September 30, 2004.

             We accept DHS’ response to revise the MD 4300 to include existing and emerging
             wireless technology requirements.

             Recommendation 2: Update the DHS IT Security Program Handbook to
             include implementation procedures required by NIST SP 800-48 for the
             use of wireless technologies. In addition, the Chief Information Security
             Ofﬁcer should identify what DHS’ minimally acceptable system conﬁguration
             requirements will be and document these requirements in the handbook.

             DHS agreed and recognized the importance of wireless risk mitigation strategies,
             as described in NIST Special Publication 800-48. In addition, the DHS WMO
             formed two functional working groups to address issues related to wireless
             commercial services. In collaboration with the DHS Chief Information
             Security Ofﬁcer, these two working groups bring together the stakeholders that
             will identify, evaluate, and prepare recommendations regarding new wireless
             technologies and associated conﬁgurations. The resulting guidelines will be
             implemented and enforced through clearly delegated authority structures presently
             established within each organization. DHS plans to complete this action by
             September 30, 2004.

             We agree that the formal steps DHS has taken, and plans to take, satisﬁes the
             intent of the recommendation.




Page 22              Inadequate Security Controls Increase Risks to DHS Wireless Networks
       Recommendation 3: Require the National Wireless Management Ofﬁce to
       provide the necessary oversight and guidance to align components’ wireless
       programs with DHS’ wireless goals.

       DHS agreed with the intent of this recommendation. DHS maintains that the
       WMO is exercising the appropriate oversight, and is communicating the policies
       and guidance to the components through its Wireless Working Group. The DHS
       WMO has formed two working groups that will provide comprehensive oversight
       and guidance in the area of wireless risk management. Key stakeholders
       within each organizational component will provide representation and subject
       matter expertise across three functional areas – (1) policy, planning, and risk
       management; (2) wireless security in major IT programs; and (3) risk assessment
       of emerging technologies. These functional areas will report to the parent
       Wireless Working Group that, in turn, provides recommendations to the DHS
       WMO. These recommendations will be incorporated, as appropriate, into policy
       statements and guidelines in MD 4300 and associated handbooks. DHS plans to
       complete this action by September 30, 2004.

       We accept DHS’ proposed actions to provide necessary oversight and guidance
       to align components’ wireless programs with DHS’ wireless goals. However,
       during the time of our review and as stated in our report, the WMO was focused
       solely on land mobile radio systems and was not providing oversight of wireless
       implementation within DHS. The OIG maintains that DHS, through its WMO,
       must oversee and manage all DHS wireless functionality.

       Recommendation 4: Implement a standardized conﬁguration addressing
       wireless technologies on DHS networks, consistent with federal security
       requirements. In addition, the Chief Information Security Ofﬁcer should
       require site surveys and wireless scans to verify that DHS’ wireless signals
       are broadcast only to authorized users and areas.

       DHS agreed to evaluate its conﬁguration guidelines to ensure compliance with
       applicable federal security requirements. Wireless site surveys and scans will
       be conducted on a periodic basis as required by the DHS IT security policy MD
       4300. DHS security authorities such as Information System Security Managers,
       ISSOs, and Network Administrators will develop and enforce DHS policy through
       routine wireless security vulnerability assessments. DHS plans to complete this
       action by September 30, 2004.




Inadequate Security Controls Increase Risks to DHS Wireless Networks             Page 23
          We accept DHS’ response to establish and evaluate new conﬁguration guidelines
          to ensure compliance with applicable federal standards and to perform wireless
          site surveys and scans periodically. Once complete, these actions will address the
          recommendation.

          Recommendation 5: Complete a C&A for each DHS system according to
          federal and DHS directives. The Chief Information Security Ofﬁcer should
          make certain that the security certiﬁcation packages contain the essential
          information needed to make a credible risk-based decision on whether to
          authorize operation of the information system.

          DHS agreed to implement and maintain a rigorous C&A process for all wireless
          systems, personal electronic devices, and tactical wireless communication
          systems. Speciﬁcally, the Wireless Security Working Group will coordinate
          with the DHS WMO and the DHS Chief Information Security Ofﬁcer to ensure
          consistency in the development and application of risk management approaches
          and C&A processes for wireless services and technologies. This collaboration
          ensures that the DHS WMO is effectively managing the Department’s wireless
          security risks. Additionally, the Designated Accrediting Authority within each
          organizational component will be responsible for approving the implementation
          and use of wireless systems at a speciﬁed risk level during the C&A process.
          DHS plans to complete this action by September 30, 2006, contingent upon the
          availability of funding.

          Once complete, these actions will address the recommendation. However, we
          suggest that DHS strive to complete all system certiﬁcations and accreditations
          sooner than the proposed target date.




Page 24           Inadequate Security Controls Increase Risks to DHS Wireless Networks
                                                                                     Appendix A
                                                                                     Purpose, Scope, and Methodology



Purpose, Scope, and Methodology
                              The overall objective of this audit was to determine whether DHS developed
                              adequate security policies, established oversight procedures, and implemented
                              sufﬁcient security measures to ensure the networking of wireless devices are
                              secure. Speciﬁcally, we determined whether: (1) DHS developed an adequate
                              security policy guide and procedures for wireless networking and devices;
                              (2) security controls have been effectively implemented and conﬁgured on DHS’
                              wireless devices and networks to protect against commonly known security
                              vulnerabilities; and, (3) adequate physical controls are implemented to protect
                              portable wireless devices, including sensitive data stored on wireless handheld
                              devices and laptops.

                              The wireless technologies selected for audit were the 802.11x, IrDA, and
                              Bluetooth. The associated devices using these technologies are the Blackberry®,
                              wireless handheld devices (such as PDAs with wireless capability, wireless mice,
                              and keyboards), and access points (such as routers/hubs). We reviewed these
                              devices because of their increasing popularity, mobility, and the well-known
                              vulnerabilities associated with them.

                              To accomplish our audit, we conducted ﬁeldwork at the following locations:

                                    •    Border and Transportation Security (BTS)20
                                               Bureau of Immigration and Customs Enforcement (ICE)
                                               Bureau of Customs and Border Protection (CBP)
                                               Transportation Security Administration (TSA)
                                    •    Bureau of Citizenship and Immigration Services (CIS)
                                    •    DHS Management
                                    •    Emergency Preparedness and Response (EP&R)
                                    •    United States Coast Guard (USCG)
                                    •    United States Secret Service (USSS)

                              During the audit, we used two handheld wireless network scanners to look
                              for authorized, unauthorized, and rogue access points; and access point signal
                              strength on DHS networks:




20
     Three DHS components were selected from the BTS directorate.


                       Inadequate Security Controls Increase Risks to DHS Wireless Networks                   Page 25
Appendix A
Purpose, Scope, and Methodology



                                  •     The Fluke Networks “WaveRunner™” is a wireless network analyzer
                                        that scans for the presence of 802.11b wireless signals.21 We conducted
                                        non-invasive scans on DHS networks to test compliance with NIST
                                        Wireless Network Standards and industry best practices. The
                                        WaveRunner™ also veriﬁed WEP implementation, correct access point
                                        conﬁguration, and Client to access point connections.

                                  •     The Berkeley Varitronics Systems Mantis™ Bluetooth Transceiver is a
                                        real-time wireless device designed for locating and verifying Bluetooth
                                        wireless devices and connections. The scan is non-invasive, non-
                                        attacking, and provides information to a tester to determine device
                                        identiﬁcation and capability, signal strength, and approximate location.

                             We did not examine wireless devices and networks used in classiﬁed
                             environments or wireless connectivity through cellular modems and mobile
                             radios during this review. We conducted our audit between October 2003 and
                             January 2004 according to generally accepted government auditing standards.
                             Major contributors to this report are listed in Appendix F.




21
  The WaveRunner™ does not have the functionality to scan for 802.11a or g protocols. Currently, 802.11a or g protocols do not share
the same market usage as 802.11b. According to “In-Stat MDR”, a high-tech market research ﬁrm, 802.11b is the predominant wireless
protocol.


Page 26                                 Inadequate Security Controls Increase Risks to DHS Wireless Networks
                                                                       Appendix B
                                                                       Management’s Comments




Inadequate Security Controls Increase Risks to DHS Wireless Networks                   Page 27
Appendix B
Management’s Comments




Page 28                 Inadequate Security Controls Increase Risks to DHS Wireless Networks
                                                                       Appendix B
                                                                       Management’s Comments




Inadequate Security Controls Increase Risks to DHS Wireless Networks                   Page 29
Appendix B
Management’s Comments




Page 30                 Inadequate Security Controls Increase Risks to DHS Wireless Networks
                                                                       Appendix B
                                                                       Management’s Comments




Inadequate Security Controls Increase Risks to DHS Wireless Networks                   Page 31
Appendix B
Management’s Comments




Page 32                 Inadequate Security Controls Increase Risks to DHS Wireless Networks
                                                           Appendix C
                                                           Wireless Technology Standards and Functionality



Wireless
                Purpose            Frequency          Range            Speed           Device       Compatibility
Standard
                                                  25 to 75 feet
                                                                                     Laptop
                                                  indoor; range                                     Not compatible
            Wireless network                                           Up to         computers,
802.11a     access
                                     5GHz         can be affected
                                                                      54Mbps         PDAs, cell
                                                                                                    with 802.11b,
                                                  by building                                       802.11g
                                                                                     phones
                                                  materials


                                                  Up to 150 feet                                    Other 2.4GHz
                                                                                     Laptop
                                                  indoors; range                                    devices, like
            Wireless network                                          Up to 11       computers,
802.11b     access
                                    2.4GHz        can be affected
                                                                       Mbps          PDAs, cell
                                                                                                    cordless phones,
                                                  by building                                       may disrupt
                                                                                     phones
                                                  materials                                         connection


                                                  Up to 150 feet                                    Other 2.4GHz
                                                  indoors; range                                    devices, like
            Wireless network                                           Up to         Laptop
802.11g     access
                                    2.4GHz        can be affected
                                                                      54Mbps         computers
                                                                                                    cordless phones,
                                                  by building                                       may disrupt
                                                  materials                                         connection


            Wireless network
            access security.
            Supplementary                         Up to 150 feet
                                                                                     Laptop
            to MAC layer.                         indoors; range                                    802.11a, 802.11b
                                    2.4 – 5.0                          Up to         computers,
802.11i     Provides alternative
                                      GHz
                                                  can be affected
                                                                      54Mbps         PDAs, cell
                                                                                                    and 802.11g
            to WEP with new                       by building                                       devices
                                                                                     phones
            encryption methods                    materials
            and authentication
            procedures


                                                                                     Printers,
            Wirelessly                            Up to 33 feet (10                                 Other 2.4GHz
                                                                                     cameras,
            connect computer                      meters); range                                    devices, like
Bluetooth                                                                            cell phones,
            peripherals, such       2.4GHz        can be affected     720Kbps                       cordless phones,
802.15                                                                               headphones,
            as printers, PDAs,                    by building                                       may disrupt
                                                                                     PDAs, other
            cameras                               materials                                         connection
                                                                                     peripherals




              Inadequate Security Controls Increase Risks to DHS Wireless Networks                            Page 33
Appendix D
DHS Wireless Capabilities



                                                          Wireless Technology                                 Draft
               Components                                                                 Wireless
                                                                                                             Security
                                           802.11a     802.11b    802.11g    Bluetooth                        Policy
                                                                                          Messaging

          DHS Management                                                          X           ♦                 ♦

          Bureau of Customs and
          Border Protection (CBP)                                                             ♦

          Bureau of Immigration &
          Customs Enforcement (ICE)                                                           ♦

          Citizenship & Immigration
          Services (CIS)                                  ♦                       X


          Emergency Preparedness &
          Response (EP&R)/FEMA               ♦            ♦          ♦                        ♦                 ♦

          Transportation Security
          Administration (TSA)               ♦                                                                  ♦
          United States Coast Guard
          (USCG)                                          ♦                                   ♦                 ♦
          United States Secret Service
          (USSS)
                                                                                  X
                                                  ♦ – Disclosed in initial data call.
                                                 X – Identiﬁed during onsite testing.




Page 34                               Inadequate Security Controls Increase Risks to DHS Wireless Networks
                                                                       Appendix E
                                                                       Report Distribution



       Department of Homeland Security

       Secretary
       Deputy Secretary
       General Counsel
       Chief of Staff
       DHS OIG Liaison
       DHS Public Affairs

       Ofﬁce of Management and Budget

       Homeland Bureau Chief
       DHS OIG Budget Examiner

       Congress

       Congressional Oversight and Appropriations Committees, as appropriate




Inadequate Security Controls Increase Risks to DHS Wireless Networks               Page 35
Appendix F
Major Contributors to This Report



                     Information Security Audits Division

                     Edward G. Coleman, Director
                     Patrick Nadon, IT Audit Manager
                     Chiu-Tong Tsang, Audit Team Leader
                     Werner Roberts, Auditor
                     Lane Melton, Technical Specialist
                     Ernest Bender, Referencer




Page 36                       Inadequate Security Controls Increase Risks to DHS Wireless Networks
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland Security, Washington, DC
20528, Attn: Ofﬁce of Inspector General, Investigations Division – Hotline. The OIG
seeks to protect the identity of each writer and caller.
